NOT RECOMMENDED FOR PUBLICATION

(T^

No. 19-1887
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
DUSTIN LEE MACLEOD,
Plaintiff-Appellant,
CD

V.

CO

CL

o
CM
o

CM

o

WILLIAM MORITZ, Director, MI Dept, of Natural
Resources, et al.,
Defendants-Appellees.

Apr 15, 2020
DEBORAH S. HUNT, Clerk

)
)
)

CD
CD

FILED

)
)
)
)

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF
MICHIGAN

)
)
)

CO

o
~o

ORDER

CD

LL
CM
CM
4-:

Before: GRIFFIN, KETHLEDGE, and STRANCH, Circuit Judges.

c

CD

E=3
O

o

Dustin Lee MacLeod, a pro se Michigan prisoner, appeals the district court’s judgment

Q

dismissing his civil rights action against several employees of tire Michigan Department of Natural

N-

Resources (“MDNR”). MacLeod also moves for the appointment of counsel. This case has been

00
00

referred to a panel of the court that, upon examination, unanimously agrees that oral argument is

CD

not needed. See Fed. R. App. P. 34(a).
<D
<J)
CD

o

According to MacLeod’s amended complaint, he is a member of the Sault Ste. Marie Tribe
of Chippewa Indians and owns land abutting the Pigeon River State Forest in Otsego County,
Michigan. The property line is not clearly defined, and MacLeod “and other tribal members
maintained and reconstructed sacred site structures on said property including arbor, alter, and
sweat lodges, with a [de minimis] encroachment upon the adjacent state land.” They used the
“structures for religious purposes,” and MacLeod claimed that they had the right to do so through
the “‘[privileges] of occupancy’ contained within Article 13 of the 1836 Treaty of Washington, as
agreed to by the state of Michigan in [the] 2007 Inland Consent Decree.” The consent decree had

No. 19-1887
-2-

resolved claims brought by several Native American tribes against the State of Michigan under the
1836 Treaty. See 1836 Treaty, 7 Stat. 491.
MacLeod alleged that the MDNR “has continuously expressed a desire to acquire the
property since at least May, 2012.” In October 2014, the MDNR issued MacLeod a civil infraction
citation for the structures, citing him for leaving property on state land for more than twenty-four
hours and giving him seven days to remove the structures. A magistrate found him responsible
o

and ordered him to pay a $100 fine. In May 2015, MacLeod claimed that the MDNR defendants

0

entered his land and then destroyed the structures. He claimed that they did so as part of a “scheme

CD

co
Q_

... to obtain and acquire [his] property for themselves or their work related projects. MacLeod

O
CM
O
CM
O
CO

also alleged that the defendants were motivated by animus toward his tribe and a desire to burden

O

P
0

the exercise of his religious practices. He sued, asserting claims that the MDNR defendants
violated the 1836 Treaty and the consent decree, as well as several constitutional provisions and
federal and state laws. He sought declaratory, injunctive, and monetary relief.

Ll_

The MDNR defendants moved to dismiss MacLeod’s complaint for failure to state a claim

CM
CM
4-J

on which relief could be granted. See Fed. R. Civ. P, 12(b)(6). MacLeod then filed a motion for

c

0

E

3
O

o
Q
r-'oo
oo
i

CD
0

CO
CO

O

summary judgment. See Fed. R. Civ. P. 56. The district court granted the defendants’ motion to
dismiss and denied MacLeod’s summary-judgment motion. The district court determined that the
1836 Treaty did not create a private right of action and that MacLeod was not a party to the consent
decree and thus lacked standing to enforce it. The district court also rejected MacLeod’s other
claims. MacLeod v. Moritz, No. 18-cv-11653,2019 WL 3072098 (E.D. Mich. July 15,2019); see
also MacLeod v. Moritz, No. 18-cv-l 1653,2019 WL 4387344 (E.D. Mich. Mar. 29,2019) (report
and recommendation).
MacLeod appeals. In his opening and reply briefs, MacLeod argues only that the district
court erred in dismissing his claims under the 1836 Treaty and the 2007 consent decree. Thus, by
failing to present arguments about his other claims, MacLeod has forfeited review of them. See
Grinter v. Knight, 532 F.3d 567, 574 n.4 (6th Cir. 2008),
We review de novo a district court’s grant of a motion to dismiss for failure to state a claim
under Rule 12(b)(6). Doe v. Miami Univ., 882 F.3d 579,588 (6th Cir. 2018). To avoid dismissal,
“a complaint must contain sufficient factual matter, accepted as true, to ‘state a claim to relief that
;

No. 19-1887
-3is plausible on its face”' Ashcroft v. Iqbal, 556 U.S. 662,678 (2009) (quoting Bell All. Corp. v,
"Proper interpretation of a tr eaty presents a question of law
Twombly, 550 U.S. 544, 570 (2007)).
” United States v. Emuegbumm, 268 F.3d 377,389 (6th Cir. 2001).
that this court reviews de novo.
MacLeod first argues that the district court did not apply the correct law when resolving
his claim under the 1836 Treaty.

He also argues that the court erred in not holding that his right

to construct and use a sweat lodge is protected by the Treaty.
“[TJreaties, like some statutes, do not always directly create rights that a private citizen can
<D

O)

CD
CL

O
CM

o
CM

o
co
■5t

enforce in court.” Renkel v. United States, 456 F.3d 640, 643 (6th Cir. 2006) (citing Tel-Oren v.
Libyan Arab Republic, 726 F.2d 774, 808 (D.C. Cir. 1984) (Bork, J„ concurring)). “As a general
rule, . .. international treaties do not create rights that are privately enforceable in the federal
courts.” Emuegbunam, 268 F.3d at 389. “Absent express language in a treaty providing for
particular judicial remedies, the federal courts will not vindicate private rights unless a treaty

O
-O
0)

LL

No court has held that the 1836 Treaty created such a private right of action. Indeed, they

CM
CM

have held just the opposite. See United States v. Michigan, 471 F. Supp. 192, 271 (W.D. Mich.

4L
C

<D

E
■■■■

t

creates fundamental rights on a par with those protected by the Constitution. Id. at 390.

ZJ

o
o
Q
00

oo

cr>

a)
C/3
CD

O

1979) (holding that “[t]he fishing right reserved by the Indians in 1836 and at issue in this case is
the communal property of the tribes which signed the treaty and their modern political successois,
it does not belong to the individual tribal members”). Thus, when individual members have sued,
to enforce the Treaty, courts have held that they lack standing. See Bellfy v. Creagh, No. 1:15- cv282, 2015 WL 5097651, at *3 (W.D. Mich. Aug. 28, 2015). For these reasons, other cases under
the Treaty were brought by tribes themselves, not individual members. See Grand Traverse Band
of Ottawa & Chippewa Indians v. Dir., Mich. Dep’t ofNat. Res., 141 F.3d 635,640 (6th Cir. 1998);
see also United States v. Michigan, 424 F.3d 438, 446 (6th Cir. 2005) (denying several tribes’
motion to intervene but noting that, “should the scope of the Tribes’ usufructuary rights become
an issue ... the proposed intervenors may renew their motion”).
MacLeod develops no argument that the 1836 Treaty created an individually enforceable
right to erect religious structures on state land. He asserts that his right derives from the Treaty s
provision stating that “[t]he Indians stipulate for the right of hunting on the lands ceded, with the

No. 19-1887
-4other usual privileges of occupancy, until the land is required for settlement.” 1836 Treaty, 7 Stat.
491, Art. 13. Yet that provision does not expressly grant a private right of action.
MacLeod also argues that the district court erred in its analysis of the 2007 consent decree.
He notes that section 6.2(a)(ii) of the consent decree provides that “[t]ribal members ... may
engage in other historically traditional activities (such as the construction and use of sweat
lodges).” The district court rejected MacLeod’s claim that the MDNR defendants violated his
CM

rights under the consent decree, holding that MacLeod was not a party to the consent decree and

a>

thus lacked standing to enforce its terms. See, e.g., Okla. Tax Comm’n v. Citizen BandPotawatomi

O)

CD

Q_

Indian Tribe of Okla., 498 U.S. 505, 514 (1991) (recognizing that Indians tribes are sovereigns

O
CM
O
CM
O

distinct from their members). And “a well-settled line of authority ... establishes that a consent

CO

*3- -

o
d)

decree is not enforceable directly or in collateral proceedings by those who are not parties to it
even though they were intended to be benefited by it.” SEC v. Dollar Gen. Corp., 378 F. App’x
511, 514 (6th Cir. 2010) (alteration in original) (quoting Blue Chip Stamps v. Manor Drag Stores,

U_ }

421 U.S. 723,750 (1975)). Because MacLeod was not a party to the 2007 consent decree, he lacks

CM
CM

standing to sue to enforce its provisions about sweat lodges.

4-1 .
. C>
0 ’

E

=s?

o
o
Q ...
CO
OO
i

Finally, MacLeod moves for the appointment of counsel. But there is no constitutional
right to be appointed counsel in a civil case, see Glover v. Johnson, 75 F.3d 264, 268 (6th Cir.
1996), and MacLeod cites no exceptional circumstances that would justify appointment in his
appeal here, see Lavado v. Keohane, 992 F.2d 601, 605-06 (6th Cir. 1993).
Accordingly, we DENY MacLeod’s motion for counsel and AFFIRM the district court’s

05

a>

judgment.

V)
CD

O

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Case: 19-1887

Document: 23-1

Filed: 05/29/2020

Page: 1

(1 of 2)

No. 19-1887

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

May 29, 2020
DEBORAH S. HUNT, Clerk

DUSTIN LEE MacLEOD,
Plaintiff-Appellant,
v.
WILLIAM MORITZ, DIRECTOR, Ml DEPT. OF NATURAL
RESOURCES, ETAL.,
Defendants-Appellees.

)
)
)
)
)
)
)
)
)
)
)
)

ORDER

BEFORE: GRIFFIN, KETHLEDGE, and STRANCH, Circuit Judges.
The court received a petition for rehearing en banc. The original panel has reviewed the
petition for rehearing and concludes that the issues raised in the petition were fully considered
upon the original submission and decision of the case. The petition then was circulated to the full
court. No judge has requested a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Case 5:18-cv-11653-JEL-MKM ECF No. 43 filed 03/29/19

PagelD.721

Page 1 of 13

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
DUSTIN LEE MACLEOD,
Plaintiff,

Case No. 18-cv-11653

v.

District Judge Judith E. Levy

DR. WILLIAM MORITZ,
et al.,

Magistrate Judge Mona K. Majzoub

Defendants.

REPORT AND RECOMMENDATION
Plaintiff Dustin MacLeod contends that Defendants William Moritz, Wade Hamilton,
Steve Milford, Scott Whitcomb, Rick McDonald, Greg Drogowski, Eric Botorff, Lori Buford, and
Dennis Knapp violated his rights under the 1836 Treaty of Washington, the First and Fourteenth
Amendments to the Constitution of the United States, and various federal and state statutes.
(Docket no. 4.)
Before the Court are Defendants’ motion to dismiss (docket no. 19) and Plaintiffs motion
for summary judgment (docket no. 26). This case has been referred to the undersigned for all
pretrial proceedings, including a hearing and determination of al! non-dispositive matters pursuant
to 28 U.S.C. § 636(b)(1)(A) and/or a report and recommendation on all dispositive matters
pursuant to 28 U.S.C. § 636(b)(1)(B). (Docket no. 9.) The Court has reviewed the pleadings and
dispenses with oral argument pursuant to Eastern District of Michigan Local Rule 7.1(f)(2).

Case 5:18-cv-11653-JEL-MKM ECF No. 43 filed 03/29/19

I.

PagelD.722

Page 2 of 13

RECOMMENDATION
The undersigned recommends that Defendants' motion to dismiss (docket no. 19) be

GRANTED, that Plaintiffs motion for summary judgment (docket no. 26) be DENIED and that
this case be dismissed in its entirety.
II.

REPORT
A. Background
The events described in the amended complaint arise from Plaintiffs ownership and use

of land abutting the Pigeon River State Forest in Ostego County, Michigan (the “State Forest”).
(Docket no. 4, p. 5.) Plaintiff is a member of the Sault Ste. Marie Tribe of Chippewa Indians. {Id.
at 4.)

Defendants are employees of the Michigan Department of National Resources (the

“MDNR”). {Id. at 4-5.)
Plaintiff owns fifteen acres of land adjacent to the State Forest. {Id. at 5.) According to
Plaintiff, the MDNR sought to purchase Plaintiffs land and consolidate that tract with the State
Park. {Id.) Plaintiff asserts that he and other members of his tribe “maintained and reconstructed
Sacred Site structures on [his] property including Arbor, alter, and sweat lodges, with a deminimus
[i/c] encroachment upon the adjacent State land.” {Id.) Plaintiff contends that his use of the State
Forest complied with his right to the “privileges of occupancy” on that land as provided by Article
13ofthe 1836 Treaty of Washington (the “1836 Treaty”). {Id. at 6.)
The contours of the 1836 Treaty were the subject of a lawsuit by several Native American
Tribes against the State of Michigan that resulted in a consent decree in 2007 (the “Consent
Decree”), which was “intended to resolve conclusively such claims, and to provide for the
protection of the resources in the 1836 Ceded Territory.” (Docket no. 19-6.)

2

Case 5:18-cv-11653-JEL-MKM ECF No. 43 filed 03/29/19

PagelD.723

Page 3 of 13

On October 14, 2014, the MDNR issued a citation to Plaintiff for “leaving] property on
State land [for more than] 24 hours,” a violation of MDNR State Land Rule R 299.922. (Docket
no. 30-3, p. 4.) The MDNR informed Plaintiff that he had “7 days to remove [the] structure.” {Id.)
On November 18, 2014, Plaintiff appeared for a hearing on the civil infraction, was found to be
responsible and was fined SI 00. (hi at 6.) Plaintiff appealed that decision, contending that the
court lacked jurisdiction because the Consent Decree mandated that the dispute be heard in a “tribal
forum.” (Id. at 10-11.) After a hearing on December 18, 2014, Judge Maria Barton upheld the
citation. (Docket no. 4-1, p. 5.)
Plaintiff asserts that on May 13, 2015, Defendants "destroyed a Sacred Sundance Arbor,
sweat lodges, and alter [sic] located on Plaintiffs land and adjacent State land” and “[e]ntered
upon Plaintiffs land to deposit the debris of the Arbor, sweat lodges, and alters [sic] . . . onto
Plaintiffs real property.” (Docket no. l,pp. 13-15.)
On May 24, 2018, Plaintiff filed his amended complaint, alleging that Defendants violated
the 1836 Treaty, the Consent Decree, the First and Fourteenth Amendments of the U.S.
Constitution, the Religious Land Use and Institutionalized Persons Act, the Michigan Constitution
and Michigan common law. (See generally docket no. 4.)
On September 11, 2018, Defendants filed a motion to dismiss Plaintiffs amended
complaint. (Docket no. 19.) In an order dated February 5, 2019, the undersigned directed the
parties to file supplemental briefing regarding the 1836 Treaty. (Docket no. 36.) Defendants filed
their supplemental brief on March 7, 2019. (Docket no. 39.) Plaintiff filed his supplemental brief
on March 18, 2019. (Docket no. 41.)

3

Case 5:18-cv-11653-JEL-MKM ECF No. 43 filed 03/29/19

PagelD.724

Page 4 of 13

B. Standard of Review
A motion to dismiss pursuant to Federal Rule of Civil Procedure 12(b)(6) tests the
sufficiency of a complaint. The court must “construe the complaint in the light most favorable to
the plaintiff, accept its allegations as true, and draw all reasonable inferences in favor of the
plaintiff” Directv, Inc. v. Treesh, 487 F.3d 471,476 (6th Cir. 2007); Inge v. Rock Fin. Corp., 281
F.3d 613, 619 (6th Cir. 2002). To survive a Rule 12(b)(6) motion to dismiss, the complaint’s
“[fjactual allegations must be enough to raise a right to relief above the speculative level on the
assumption that all the allegations in the complaint are true.” Bell Atlantic Corp. v. Twombty, 550
U.S. 544, 555 (2007) (internal citations and emphasis omitted). See also Ass'n of Cleveland Fire
Fighters v. City of Cleveland, Ohio. 502 F.3d 545, 548 (6th Cir. 2007).
This acceptance of factual allegations as true, however, is inapplicable to legal conclusions:
“Threadbare recitals of the elements of a cause of action, supported by mere conclusory statements,
do not suffice.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). Thus, the court is “not bound to
accept as true a legal conclusion couched as a factual allegation.” Id. (internal quotations and
citations omitted). “[OJnly a complaint that states a plausible claim for relief survives a motion to
dismiss.” Id. at 679. “Determining whether a complaint states a plausible claim for relief [is] a
context-specific task that requires the reviewing court to draw on its judicial experience and
common sense.” Id. To make this determination, a court may apply the following two-part test:
(1) identify[] pleadings that, because they are no more than conclusions, are not entitled to the
assumption of truth;” and (2) “assume [the] veracity [of the remaining allegations] and then
determine whether they plausibly give rise to an entitlement to relief.” Id.
In addressing motions under Rule 12(b)(6), the Sixth Circuit recognizes that, in addition to
the allegations of the complaint, the court “may also consider other materials that are integral to

Case 5:18-cv-11653-JEL-MKM ECF No. 43 filed 03/29/19

PagelD.725 Page 5 of 13

the complaint, are public records, or are otherwise appropriate for the taking of judicial notice.”
Ley v. Visteon Corp., 543 F.3d 801, 805 (6th Cir. 2008).
C. Analysis
Defendants contend that Plaintiff s amended complaint fails to state a claim on which relief
may be granted. (Docket no. 19.) Plaintiff filed a response to Defendants’ motion (docket no. 27)
as well as a summary judgment motion of his own (docket no. 26). Below, the undersigned will
address the various bases for relief cited in Plaintiffs amended complaint.
/. The Treaty Itself
Plaintiff alleges that Defendants’ actions violated the 1836 Treaty, which provides that the
Ottawa and Chippewa tribes “stipulate for the . . . usual privileges of occupancy (on the ceded
land] until the land is required for settlement.” (Docket no. 4, p. 12; docket no. 19-5, p. 7.)
International treaties entered into by the United States become part of the “supreme Law
of the Land.” U.S. Const, art. VI, cl. 2. But treaties do not always directly create rights that a
private citizen can enforce in court. Renkel v. United States, 456 F.3d 640, 642-43 (6th Cir. 2006)
In fact, courts presume that the rights created by an international treaty belong to a state and that
a private individual cannot enforce them.” Id. (citing United States v. Emuegbunam, 268 F.3d 377,
389 (6th Cir. 2001)). In the context of treaties involving Native Americans, courts should focus
upon the historical context in which the treaty was written and signed and should “see that the
terms of the treaty are carried out, so far as possible, in accordance with the meaning they were
understood to have by the tribal representatives at the council.” Tulee v. State of Washington, 315
U.S. 681, 684, 62 S.Ct. 862, 864, 86 L. Ed. 1115(1942). See also United States V. Winans, 198
U.S. 371,380, 25 S. Ct. 662, 664, 49 L. Ed. 1089 (1905).

5

Case 5:18-cv-11653-JEL-MKM ECF No. 43 filed 03/29/19 PagelD.726 Page 6 of 13

To support a claim under 42 U.S.C. § 1983, a treaty must create “individual rights,” that
are “unambiguously conferred” by “unmistakable” language. See Gonzaga Univ. v. Doe, 536 U.S.
273, 283-84 (2002). Courts should consider whether the treaty uses “rights-creating language”
and “individually focused terminology,” as opposed to “aggregate focus” language. Harris v.
Olszewski, 442 F.3d 456, 461 (6th Cir. 2006) (citations omitted). Such language should not be
“broad and nonspecific” in a way that is “ill-suited to judicial remedy.” Westside Mothers v.
Olszewski, 454 F.3d 532, 543 (6th Cir. 2006). See also Jogi v. Voges, 480 F.3d 822 (7th Cir.
2007); Cornejo v. Cty. of San Diego, 504 F.3d 853 (9th Cir. 2007); Mora v. New York, 524 F.3d
183 (2d Cir. 2008); Gandara v. Bennett, 528 F.3d 823 (11th Cir. 2008).
The 1836 Treaty was concluded between the United States and the Ottawa and Chippe wa
nations of Native Americans. (Docket no. 19-5, pp. 2-3.) In Article 13 of the Treaty, “[t]he
Indians stipulate^] for the right of hunting on the lands ceded, with the other usual privileg es of
occupancy, until the land is required for settlement.” (Id. at 7.) This language is both vague and
“aggregate focused.” Accordingly, it does not create “individual rights” enforceable under § 1983.
See United States v. State ofMich., 471 F. Supp. 192, 271 (W.D. Mich. 1979) (“The fishing right
reserved by the Indians in 1836 and at issue in this case is the communal property of the tribes
which signed the treaty and their modern political successors; it does not belong to individual tribal
members.”). Therefore, the Court should dismiss Plaintiffs claim under the 1836 Treaty.

''

2. The Consent Decree
Alternately, Plaintiff contends that Defendants violated the terms of the Consent Decree,
which was concluded by the parties to a 1973 dispute regarding the effect of the 1836 Treaty.
(Docket no. 4, p. 12; docket no. 19-6.) Plaintiff was not a party to the 1973 case and was not a
signatory to the Consent Decree.

\/.
6

-• '
1. i '

I

Case 5:18-cv-11653-JEL-MKM ECF No. 43 filed 03/29/19

PagelD.727

Page 7 of 13

“[T]hird parties to a consent decree lack standing to enforce their understanding of its
terms.” Aiken v. City of Memphis, 37 F.3d 1155,1167 (6th Cir. 1994). See also Blue Chip Stamps
v. Manor Drug Stores, 421 U.S. 723 (1975); Vogel v. City of Cincinnati, 959 F.2d 594 (6th Cir.
1992). Even intended third-party beneficiaries of a consent decree lack standing to enforce its
terms. Id. at 1168.
Plaintiff contends that he is a party to the consent decree because he is a member of the
Sault Ste. Marie Tribe of Chippewa Indians. (Docket no. 27, p. 4.) But Native American tribal
organizations are sovereign entities distinct from their individual members. See 13 Mich. Civ. Jur.
t

Indians § 4 (“While tribes possess sovereign immunity from suit absent explicit congressional or
tribal consent, their officers, agents and members do not.”) (citing Oklahoma Tax Com 'n v. Citizen
Band Potawatomi Indian Tribe of Oklahoma, 498 U.S. 505, 514, 111 S. Ct. 905, 112 L. Ed. 2d
1112 (1991)).
Accordingly, the Court should find that Plaintiff lacks standing to enforce the Consent
Decree.
3. Due Process
Plaintiff contends that Defendants’ actions violated the Due Process Clause of the
Fourteenth Amendment. (Docket no. 4, p. 11.) The undersigned will analyze the procedural and
substantive aspects of this claim separately below.
a. Procedural Due Process
No State shall “deprive any person of life, liberty, or property, without due process of law.”
U.S. Const. Amend. XIV, § 1. Those who seek to invoke the procedural protection of the Due
Process Clause must establish that a life, liberty, or property interest is at stake. Wilkinson v.
Austin, 545 U.S. 209, 221 (2005).

7

Case 5:18-cv-11653-JEL-MKM ECF No. 43 filed 03/29/19

PagelD.728

Page 8 of 13

Plaintiff contends that the Consent Decree gives him a property interest in the State Forest.
(Docket no. 4, p. 10.) But even if he were a signatory to the consent decree, Plaintiff would not
have a property interest in the injunctive relief contained therein. See Hadix i>. Johnson, 133 F.3d
940, 943 (6th Cir. 1998) (“A consent decree in which the relief is provided subject to future
modification cannot create a vested property right in that relief for due process purposes.”) (citing
Landgrafv. USI Film Prods., 511 U.S. 244, 274, 114 S. Ct. 1483, 1501-02, 128 L.Ed.2d 229
(1994)).
As a result of the civil infraction issued by Defendants, Plaintiff was fined $100 and was
thus deprived of property. However, Plaintiff received notice, a hearing, and an appellate process
before the state deprived him of that property. Accordingly, Defendants did not violate Plaintiff’s
tight to procedural due process. See Mathews v. Eldridge, 424 U.S. 319, 335, 96 S. Ct. 893 903
47 L. Ed. 2d 18 (1976) (“[identification of the specific dictates of due process generally requires
consideration of three distinct factors: First, the private interest that will be affected by the official
action; second, the risk of an erroneous deprivation of such interest through the procedures used,
and the probable value, if any, of additional or substitute procedural safeguards; and finally, the
Government's interest, including the function involved and the fiscal and administrative burdens
that the additional or substitute procedural requirement would entail.”)
b. Substantive Due Process
Substantive due process is “[t]he doctrine that governmental deprivations of life, liberty or
property are subject to limitations regardless of the adequacy of the procedures employed.” Range
v. Douglas, 763 F.3d 573, 588 (6th Cir. 2014) (citing Pearson v. City of Grand Blanc, 961 F.2d
1211,1216 (6th Cir. 1992)). It protects a narrow class of interests, including those enumerated in
the Constitution, those so rooted in the traditions of the people as to be ranked fundamental, and

8

Case 5:18-cv-11653-JEL-MKM ECF No. 43 filed 03/29/19

Page!D.729

Page 9 of 13

the interest in freedom from government actions that “shock the conscience." Id. (citing Bell v.
Ohio State Univ., 351 F.3d 240, 249-50 (6th Cir. 2003)). It also protects the right to be free from
“arbitrary and capricious” governmental actions, which is another formulation of the right to be
free from conscience-shocking actions. Id. (citing Bowers v. City ofFlint, 325 F.3d 758, 763 (6th
Cir. 2003) and Pearson v. City of Grand Blanc, 961 F.2d 1211, 1216 (6th Cir. 1992)).
The facts alleged in Plaintiff’s amended complaint do not support a substantive due process
claim. Defendants’ actions were not arbitrary, capricious or conscience-shocking. To the extent
that Plaintiff contends that Defendants violated his right to exercise his religious practices, that
claim is addressed separately below. See Thaddeus-Xv. Blatter, 175 F.3d 378, 387 (6th Cir. 1999)
(noting that “[wjhere a particular Amendment ‘provides an explicit textual source of constitutional
protection’ against a particular sort of government behavior, ‘that Amendment, not the more
generalized notion of substantive due process, must be the guide for analyzing these claims’”)
(quoting Graham v. Connor, 490 U.S. 386, 395, 109 S. Ct. 1865, 1871, 104 L. Ed. 2d 443 (1989)).
4. Equal Protection
Plaintiff alleges that Defendants violated the Equal Protection Clause of the Fourteenth
Amendment by removing his sundance arbors and sweat lodges while permitting hunters to leave
ground blinds and tree stands on public land. (Docket no. 4, p. 11.)
The Equal Protection Clause of the Fourteenth Amendment commands that “no state shall
... deny to any person within its jurisdiction the equal protection of the laws.” U.S. Const, amend.
XIV, § 1. f o state an equal protection claim, a plaintiff must adequately plead that the government
treated the plaintiff “disparately as compared to similarly situated persons and that such disparate
treatment either burdens a fundamental right, targets a suspect class, or has no rational basis.”
Club Italia Soccer & Sports Org., Inc. v. Charter Twp. of Shelby, Mich., 470 F.3d 286, 299 (dth

9

Case 5:18-cv-11653-JEL-MKM ECF No. 43 filed 03/29/19

PagelD.730

Page 10 of 13

Cir.2006). The “threshold element of an equal protection claim is disparate treatment; once
disparate treatment is shown, the equal protection analysis to be applied is determined by the
classification used by government decision-makers.” Scarbrough k Morgan Cnty. Bd. ofEduc..
470 F.3d 250, 260 (6th Cir.2006).
Plaintiff fails to plausibly allege that the State permits another class of individuals to build
the type of structures he built on state land. Plaintiff contends that the arbor and lodges he
constructed are the equivalent of a “brush blind,” which is permitted to remain on state land for
more than twenty-four hours. (Docket no. 4, p. 11.) According to the public materials provided
by Defendants, a “dead natural materials ground blind” must be “must be constructed exclusively
of dead and natural materials found on the ground in the area of the blind” and cannot be “fastened
in any permanent manner.” (Docket no. 19-8.) The structures erected by Plaintiff do not meet
these criteria. (See docket no. 30-2 (photographs of structures referred to in amended complaint)).
Accordingly, the Court should dismiss Plaintiff s equal protection claim.
5. Free Exercise
Plaintiff contends that Defendants improperly burdened his religious exercise. (Docket no.
4, p. 10.)
The Free Exercise Clause of the First Amendment provides that “Congress shall make no
law respecting an establishment of religion, or prohibiting the free exercise thereof

.” U.S.

Const, amend. 1. However, “a law that is neutral and of general applicability need not be justified
by a compelling governmental interest even if the law has the incidental effect of burdening a
particular religious practice.” Church of the Lukumi Babalu Aye, Inc. v. City of Hialeah, 508 U.S.
520, 532, 113 S. Ct. 2217, 2226, 124 L. Ed. 2d 472 (1993) (citing Employment Div., Dept, of
Human Resources of Ore. v. Smith, 494 U.S. 872, 110 S. Ct. 1595, 108 L.Ed.2d 876 (1990)).

10

Case 5;18-cv-11653-JEL-MKM ECF No. 43 filed 03/29/19

PagelD.731 Page 11 of 13

The law at issue in this case, MDNR State Land Rule R 299.922, is neutral and of general
applicability. It does not “target[] religious conduct for distinctive treatment.” See Lukumi, 508
U.S. at 534. Instead, it seeks to prevent individuals from leaving property on state land for
excessive periods. For the reasons set forth above, the MDNR's different treatment of brush blinds
is rational, and Plaintiff does not plausibly allege that the different treatment masks a religious
animus. Therefore, the Court should dismiss Plaintiffs free-exercise claim.
6. Laws Not Privately Enforceable
Plaintiff seeks relief under 18 U.S.C. § 241 (criminal conspiracy), § 242 (deprivation of
rights under color of law), and § 247 (obstruction of religious exercise). (Docket no. 4, p. 13.)
Plaintiff also seeks relief under 42 U.S.C. § 1996 (“[I]t shall be the policy of the United States to
protect and preserve for American Indians their inherent right of freedom to believe, express, and
exercise the traditional religions of the American Indian . . . .”) and the Northwest Ordinance.
Those statutes are either invalid or not enforceable by Plaintiff. Accordingly, the Court should
dismiss these claims.
7. RLUIPA
Plaintiff contends that Defendants violated the Religious Land Use and Institutionalized
Persons Act, 42 U.S.C. § 2000cc (“RLUIPA”). (Docket no. 4, p: 13.)
RLUIPA directs that “[n]o government shall impose or implement a land use regulation in
a manner that imposes a substantial burden on the religious exercise of a person, including a
religious assembly or institution, unless the government demonstrates that imposition of the burden
on that person, assembly, or institution (A) is in furtherance of a compelling governmental interest;
and (B) is the least restrictive means of furthering that compelling governmental interest.”

11

Case 5:18-cv-11653-JEL-MKM ECF No. 43 filed 03/29/19 PagelD.732 Page 12 of 13

However, Congress expressly defined “land use regulation’’ as “a zoning or landmarking
law,” and a claimant must have “an ownership, leasehold, easement, servitude, or other property
interest in the regulated land or a contract or option to acquire such an interest.” 42 U.S.C.
§ 2000cc-5(5).
Because State Land Rule R 299.922 is not “a zoning or landmarking law” and because
Plaintiff does not have a legally cognizable interest in the State Forest, the Court should dismiss
this claim.
8. State-law Claims
It the Court adopts the undersigned’s recommendation to dismiss all of Plaintiff s federallaw claims, the Court should decline to exercise supplemental jurisdiction over Plaintiffs statelaw claims. See 28 U.S.C. § 1367 (“The district courts may decline to exercise supplemental
jurisdiction over a claim [forming a part of the same case or controversy] if. . . the district court
has dismissed all claims over which it has original jurisdiction.”).
D. Conclusion
For the reasons stated herein, it is recommended that Defendants’ motion to dismiss
(docket no. 19) be GRANTED, that Plaintiffs motion for summary judgment (docket no. 26) be
DENIED and that this case be dismissed in its entirety.
III.

NOTICE TO PARTIES REGARDING OBJECTIONS
The parties to this action may object to and seek review of this Report and

Recommendation, but are required to act within fourteen (14) days of service of a copy hereof as
provided for in 28 U.S.C. § 636(b)(1) and Eastern District of Michigan Local Rule 72.1(d). Failure
to file specific objections constitutes a waiver of any further right of appeal. Thomas v. Am, 474
U.S. 140, 149 (1985); Howard v. Sec’y of Health & Human Servs., 932 F.2d 505 (6th Cir. 1991);
12

Case 5:18-cv-11653-JEL-MKM ECF No. 43 filed 03/29/19 PagelD.733 Page 13 of 13

l/.S. v. Watters, 638 F.2d 947,949-50 (6th Cir. 1981). Filing of objections which raise some issues
but fail to raise others with specificity will not preserve all the objections a party might have to
this Report and Recommendation. Willis v. Sec ‘y ofHealth & Human Servs., 931 F.2d 390, 401
(6th Cir. 1991); Smith v. Detroit Fed’n of Teachers Local 231, 829 F.2d 1370, 1373 (6th Cir.
1987). Pursuant to E.D. Mich. LR 72.1(d)(2), a copy of any objections is to be served upon this
Magistrate Judge.
Any objections must be labeled, as “Objection #1,” “Objection #2,” etc. Any objection
must recite precisely the provision of this Report and Recommendation to which it pertains. Not
later than fourteen days after service of an objection, the opposing party must file a concise
response proportionate to the objections in length and complexity. The response must specifically
address each issue raised in the objections, in the same order and labeled as “Response to Objection
#1,” “Response to Objection #2,” etc.

Dated: March 29, 2019

s/ Mona K. Maizouh
MONA K. MAJZOUB
UNITED STATES MAGISTRATE JUDGE

PROOF OF SERVICE
I hereby certify that a copy of this Report and Recommendation was served upon Plaintiff
Dustin MacLeod and Counsel of Record on this date.
Dated: March 29, 2019

s/ Leanne Hosking
Case Manager

13

Appendix L - Order Adopting Report and Recommendation.
Docket #55.

Case 5:18-cv-11653-JEL-MKM ECF No. 55, PagelD.790 Filed 07/15/19 Page 1 of 15

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
Dustin Lee MacLeod,
Plaintiff,
v.

Case No. 18-cv-11653
Judith E. Levy
United States District Judge

William Moritz, et al.,
Mag. Judge Mona K. Majzoub
Defendants.

ORDER ADOPTING REPORT AND RECOMMENDATION T431
Before the Court is Magistrate Judge Mona K. Majzoub’s Report
and Recommendation (“R&R”) recommending that the Court grant
defendants William Moritz, Wade Hamilton, Steve Milford, Scott
Whitcomb, Rick McDonald, Greg Drogowski, Eric Botorff, Lori Burford,
and Dennis Knapp’s motion to dismiss (ECF No. 19) and deny plaintiff
Dustin MacLeod’s motion for summary judgment (ECF No. 26). The R&R
recommends granting defendants’ motion to dismiss because the
complaint does not state a claim for which relief can be granted. Plaintiff
submitted eight objections to the R&R, one of which has two sub-parts
(ECF No. 46, 49), and defendants responded. (ECF No. 48.) For the

Case 5:18-CV-11653-JEL-MKM ECF No. 55, PagelD.791 Filed 07/15/19 Page 2 of 15

reasons set forth below, plaintiffs objections are overruled, and the R&R
is adopted in full.
I.

Background
The Court has carefully reviewed the R&R and is satisfied that it is

a thorough account of the relevant portions of the record. The Court
incorporates the factual background from the R&R as if set forth herein.
II.

Legal Standard
A party may object to a magistrate judge’s report and

recommendation on dispositive motions, and a district judge must resolve
proper objections under a de novo standard of review. 28 U.S.C. §
636(b)(1)(B)—(C); Fed. R. Civ. P. 72(b)(1)—(3). “For an objection to be
proper, Eastern District of Michigan Local Rule 72.1(d)(1) requires
parties to

‘specify the

part of the order,

proposed findings,

recommendations, or report to which [the party] objects’ and to ‘state the
basis for the objection.’” Pearce v. Chrysler Group LLC Pension Plan, 893
F.3d 339, 346 (6th Cir. 2018). Objections that restate arguments already
presented to the magistrate judge are improper, Coleman-Bey v.
Bouchard, 287 F. App’x 420, 422 (6th Cir. 2008) (citing Brumley v.
Wingard, 269 F.3d 629, 647 (6th Cir. 2001)), as are those that dispute the
2

Case 5:18-cv-11653-JEL-MKM ECF No. 55, PagelD.792 Filed 07/15/19 Page 3 of 15

general correctness of the report and recommendation. Miller v. Currie,
50 F.3d 373, 380 (6th Cir. 1995).
Moreover, objections must be clear so that the district court can
“discern those issues that are dispositive and contentious.” Id. (citing
Howard v. Sec’y of Health and Human Servs., 932 F.2d 505, 509 (6th Cir.
1991)); see also Thomas v. Am, 474 U.S. 140, 147 (1985) (explaining that
objections must go to “factual and legal” issues “at the heart of the
parties’ dispute”). In sum, plaintiffs objections must be clear and specific
enough that the Court can squarely address them on the merits. See
Pearce, 893 F. 3d at 346.
Although most of plaintiffs objections are difficult to comprehend,
the Court will construe them liberally and in favor of the selfrepresented1 plaintiff.

1 Plaintiff moved for appointment of counsel twice, and both motions were
denied. (ECF No. 16, PageID.214; ECF No. 42, PageID.718). Mr. Phil Bellfy, having
lost his motion to intervene (ECF No. 42, PagelD.716-717), filed a paper purporting
to be a notice of appearance of counsel on plaintiffs behalf. (ECF No. 53, PagelD.780.)
Bellfy then filed a paper entitled “Second Motion to Deny Defendants’ Motion to
Dismiss and to Schedule Discovery and a Date for Trial,” (ECF No. 54 PagelD.784)
where he states he is “Counsel for Plaintiff.” (Id. at PageID784, 788.) Mr. Bellfy’s
filings do not comply with the Eastern District of Michigan Local Rules, specifically
E.D.Mich. LR 83.20.
Only persons who are “admitted to practice in a court of record in a state, territory,
commonwealth, or possession of the United States ... and who is in good standing [are]
eligible for admission to the bar of this court...” Id. Mr. Bellfy is not admitted to the

3

Case 5:18-cv-11653-JEL-MKM ECF No. 55, PagelD.793 Filed 07/15/19 Page 4 of 15

III.

Analysis
A.

Objection 1

In his first objection, plaintiff disputes the R&R’s finding that he
has not stated a claim under 42 U.S.C. § 1983. (ECF No. 49 PageID.76061.) Plaintiff argues that an 1836 Treaty confers a right to bring an
individual case of this nature under § 1983.
For a treaty to create an individual right that is enforceable by a
private litigant under § 1983, it must “unambiguously conferQ” the right
to do so with “unmistakable” language. See Gonzaga Univ. v. Doe, 536
U.S. 273, 283—84 (2002). The private rights of action created by a treaty
cannot be “broad” or “nonspecific.” Westside Mothers v. Olszewski, 454
F.3d 456, 461 (6th Cir. 2006). Here, there is no specific language in the
Treaty conferring the right for an individual to bring an action to enforce
its terms. In United States v. Michigan, 471 F. Supp. 192, 271-72 (W.D.
Mich. 1979), which analyzed the same 1836 Treaty, the court also held
that the Treaty did not confer individually enforceable rights on the

State Bar of Michigan or the Eastern District of Michigan. He provides a certificate
from the Sault Ste. Marie Chippewa Tribal Court, which states that he was admitted
and qualified to practice “as a Lay Advocate in Sault Ste. Marie Chippewa Tribal
Court,” which, on its own, does not confer his admission or authority to practice law
(or hold himself out as practicing law) in this Court. Accordingly, plaintiff is treated
as a self-represented party in this case.

4

Case 5:18-cv-11653-JEL-MKM ECF No. 55, PagelD.794 Filed 07/15/19 Page 5 of 15

members of the tribe: “[t]he fishing right reserved by the Indians in 1836
and at issue in this case is the communal property of the tribes which
signed the treaty and their modern political successors; it does not belong
to the individual tribal members .” Id. (emphasis added); see also Bellfy v.
Creagh, No. 15-282, 2015 U.S. Dist. LEXIS 114342, at *3 (W.D. Mich.
Aug. 28, 2015) (“[W]hile it is true that individual members of the tribes
that are parties to the Consent Decree enjoy usufructuary rights- those
rights are ‘communal property of the tribes which signed the treaty and
their modern political successors,’ and do ‘not belong to individual tribal
members.’”) (quoting Michigan, 471 F. Supp. at 261). The Treaty does not
confer a private right of action.
Plaintiff disagrees with the law. In support, he cites to the 1905
case, United States v. Winans, 198 U.S. 371, 381 (1905), which states:
“Reservations were not of particular parcels of land, and could not be
expressed in deeds, as dealings between private individuals. The
reservations were in large areas of territory, and the negotiations were
with the tribe. They reserved rights, however, to every individual Indian,
as though named therein.” (ECF No. 49, PageID.761.) Winans analyzes
an 1859 fishing treaty between the Yakima Nation of Indians in the state
5

Case 5:18-cv-11653-JEL-MKM ECF No. 55, PagelD.795 Filed 07/15/19 Page 6 of 15

of Washington, which is not the same treaty at issue in this case.
Plaintiffs argument that Winans confers a private right of action in this
case is incorrect. Plaintiffs first objection is overruled.
B.

Objection 2

Plaintiffs second objection relates to his allegation that he has
“standing as a right of user [sic] in tribal property derived from the legal
or equitable property right of the Tribe of which he is a member.” (ECF
No. 49, PageID.761.) Specifically, it appears plaintiff alleges that he has
standing to enforce the terms of a 2007 judicial consent decree between,
among others, the United States, the Sault Ste. Marie Tribe of Chippewa
Indians, and the State of Michigan, because he is a member of the Sault
Ste. Marie Tribe of Chippewa Indians. (ECF No. 26, PageID.509.)
However, the law is well settled that, first, Indian tribal
organizations are sovereign entities, and are distinct from the status of
their individual members. See Oklahoma Tax Commn v. Citizen Band
Potawatomi Indian Tribe of Oklahoma, 498 U.S. 505, 514 (1991). And
second, third-parties to a consent decree—even those who are the
intended third-party beneficiaries—lack standing to enforce a consent
decree’s terms. “‘[A] well-settled line of authority from this Court
6

Case 5:18-cv-11653-JEL-MKM ECF No. 55, PagelD.796 Filed 07/15/19 Page 7 of 15

establishes that a consent decree is not enforceable directly or in
collateral proceedings by those who are not parties to it even though they
were intended to be benefited by it.”’ Aiken v. City of Memphis, 37 F.3d
1155, 1167 (6th Cir. 1994) (quoting Blue Chip Stamps v. Manor Drug
Stores, 421 U.S. 723, 750 (1975)).
Plaintiff therefore does not have standing to enforce the 2007
consent decree, even though he is a member of the Sault Ste. Marie Tribe
of Chippewa Indians, which was a party to the Decree. Accordingly,
plaintiffs second objection is overruled.
C. Objection 3a
Plaintiffs objection 3(a) is not a proper objection. Plaintiff states
that he believes the Magistrate Judge “confused” plaintiffs property
interest in the $100 civil infraction fine with his allegation that he has a
property interest in the state forest. (ECF No. 49 PageID.761.) However,
there is no indication that the Magistrate Judge was confused, and this
Court’s review leads to the same outcome.
In Hadix v. Johnson, 133 F.3d 940 (6th Cir. 1998), the plaintiffs in
a class action entered into a consent agreement regarding the conditions
of their confinement. Id. The plaintiffs challenged certain provisions of
7

Case 5:18-cv-11653-JEL-MKM ECF No. 55, PagelD.797 Filed 07/15/19 Page 8 of 15

the consent judgment on due process and equal protection grounds, which
the court did not permit, stating, “[a] consent decree in which the relief
is provided subject to future modification cannot create a vested property
right in that relief for due process purposes.” Id. at 943 n.3. (citing
Landgraf v. USI Film Prods., 511 U.S. 244, 274 (1994) (injunctions
operate prospectively and litigants have no vested rights in them)).
Further, regarding plaintiffs civil infraction fine of $100, a review
of the record reveals that plaintiff received adequate procedural due
process when he received notice, a hearing, and an appellate process after
receiving the fine. Plaintiffs objection is overruled.
D. Objection 3b
Plaintiffs objection 3(b) appears to address the Magistrate Judge’s
finding that the facts alleged in plaintiffs amended complaint do not
support a substantive due process claim. (ECF No. 49 at 761-62.)
Specifically, plaintiff argues that the facts in his amended complaint are
“conscience shocking” in the constitutional sense. (Id.) However,
“conscience shocking” behavior that is actionable under the United States
Constitution must involve egregious circumstances. See Cty. of
Sacramento v. Lewis, 523 U.S. 833, 850-51 (1998).
8

Case 5:18-cv-11653-JEL-MKM ECF No. 55, PagelD.798 Filed 07/15/19 Page 9 of 15

Plaintiffs objection here, that “[djamage to religious property
and/or the obstruction of persons in the free exercise of their religious
beliefs” by its very nature shocks the conscience “of even the most
disinterested person,” and his cite to 18 U.S.C. § 247, do not meet the
legal standard for substantive due process. Therefore, plaintiffs objection
3b is overruled.
E. Objection 4
Plaintiffs fourth objection involves his allegation that defendants
would not have removed his structures if they had believed the structures
were mere brush blinds, but instead targeted the structures because
defendants knew they were sweat lodges. (ECF No. 49, PageID.762.) He
argues that this “is an issue for the trier of fact to determine.” (Id.) But
this argument is not supported by the facts.
According to the Michigan Hunting Digest rules supplied by
defendants,2 ground blinds must be “constructed exclusively of dead and

2 When a court is presented with a Rule 12(b)(6) motion testing the sufficiency
of a complaint, “it may consider the Complaint and any exhibits attached thereto,
public records, items appearing in the record of the case and exhibits attached to
defendant’s motion to dismiss so long as they are referred to in the Complaint and
are central to the claims contained therein.” Bassett v. Nat’l Collegiate Athletic Ass’n,
528 F.3d 426, 430 (6th Cir. 2008). The Treaty of Washington, Inland Consent Decree,
2018 Michigan Hunting Digest, the MDNR State Land Rules referenced in the

9

Case 5:18-cv-11653-JEL-MKM ECF No. 55, PagelD.799 Filed 07/15/19 Page 10 of 15

natural materials found on the ground in the area of the blind” and
cannot be “fastened in any permanent manner.” (ECF No. 19-8,
PageID.4.) They must also be “clearly portable and removed at the end of
each day’s hunt.” (Id.) Plaintiff has not pleaded any facts that would
indicate that his structures were destroyed because of their religious
character. Accordingly, plaintiffs fourth objection is overruled.
F. Objection 5
Plaintiffs fifth objection appears to involve his argument that
Michigan Department of Natural Resources (“MDNR”) State Land Rule
299.222 violates plaintiffs religious practice. On the contrary, the law is
settled that, unless that MDNR State Land Rule 229.922 “targets
religious conduct for distinctive treatment,” it does not violate the law.
(ECF No. 49, PagelD. 762.) See Church of Lukumi Babalu Aye, Inc. v.
City of Hialeah, 508 U.S. 520, 534 (1993). MDNR State Land Rule
299.922 is neutral, generally applicable, and does not even “subtl[y]
depart0 from neutrality.” Id. (quoting Gillette v. United States, 401 U.S.

defendants’ motion to dismiss, and in their joint reply in support of their motion to
dismiss, fall within these categories of documents. (ECF Nos. 19-2 - 19-10.)

10

Case 5:18-cv-11653-JEL-MKM ECF No. 55, PagelD.800 Filed 07/15/19 Page 11 of 15

437, 452 (1971)). Plaintiffs argument is therefore unsupported by the
facts or law.
He also argues that the 1836 Treaty of Washington and its
attendant Consent Decree is “the Supreme Law of the Land,” which
supersedes MDNR State Land Rule 299.922. This is an incorrect
understanding of the law, and unsupported by any facts. (ECF No. 49
PagelD. 762.) Plaintiffs fifth objection is overruled.
G. Objection 6
Plaintiffs sixth objection regards the R&R’s recommendation that
the Court dismiss plaintiffs claims for relief under 18 U.S.C. § 241
(criminal conspiracy), § 242 (deprivation of rights under color of law), and
§ 247 (obstruction of religious exercise). (See ECF No. 43, PagelD.731.)
18 U.S.C. §§ 241, 242, and 247 are criminal statutes. “[T]he general rule
is that a private right of action is not maintainable under a criminal
statute.” American Postal Worker's Union AFL-CIO, Detroit Local v.
Independent Postal Sys. of America, 481 F.2d 90, 93 (6th Cir. 1973).
“Equally important is the firmly established principle that criminal
statutes can only be enforced by the proper authorities of the United
States Government and a private party has no right to enforce these
11

Case 5:18-cv-11653-JEL-MKM ECF No. 55, PagelD.801 Filed 07/15/19 Page 12 of 15

sanctions.” Id. (internal quotation marks and citation omitted). “[W]here
there is a ‘bare criminal statute, with absolutely no indication that civil
enforcement of any kind was available to anyone,’ a private cause of
action will not be inferred.” Marx v. Centran Corp., 747 F.2d 1536, 1549
(6th Cir. 1984) (quoting Cort v. Ash, 422 U.S. 66, 80 (1975)); see also
Adams v. CitiGroup Global Market Realty Corp., No. 11-10178, 2011 U.S.
Dist. LEXIS 6402 at *3—4 (E.D. Mich. Jan. 24, 2011). Plaintiff cannot
privately enforce a criminal statute through this civil action. Accordingly,
his sixth objection is overruled.
H. Objection 7
Plaintiffs seventh objection regards the Magistrate Judge’s
recommendation that plaintiff does not have the type of cognizable
ownership interest in the state forest land that would be required for the
Religious Land Use and Institutionalized Persons Act (“RLUIPA”) to
aPPly- (ECF No. 49 PageID.763.) Plaintiff again cites to Winans, 198 U.S.
371, which was decided in 1905 and is inapplicable to a statute enacted
nearly 100 years later.
Section 3 of RLUIPA, 42 U.S.C. § 2000cc-l(a)(l), provides in part:
No government shall impose or implement a land use
regulation in a manner that imposes a substantial
12

Case 5:18-cv-11653-JEL-MKM ECF No. 55, PagelD.802 Filed 07/15/19 Page 13 of 15

burden on the religious exercise of a person, including a
religious assembly or institution, unless the government
demonstrates that imposition of the burden on that
person, assembly, or institution-(A) is in furtherance of a compelling governmental
interest; and
(B) is the least restrictive means of furthering that
compelling governmental interest.
Although RLUIPA protects individuals in their religious exercise,
the statute’s language indicates that it is not intended to operate as “an
outright exemption from land-use regulations.” Living Water Church of
V

God v. Charter Twp. of Meridian, 258 F. App’x 729, 737 (6th Cir. 2007)
(quoting Civil Liberties for Urban Believers v. City of Chicago, 342 F.3d
at 752, 762 (7th Cir. 2003)).
Here, plaintiff believes that MDNR State Land Rule 299.922 is a
land use regulation—a “zoning or landmarking law”—that infringes on
his use of state land. However, as set forth above, MDNR State Land Rule
is neutral, generally applicable, and does not even “subtl[y] departQ from
neutrality.” Church of the Lukumi Babalu Aye, Inc. v. City of Hialeah,
508 U.S. 520, 534 (1993). It does not impose a substantial burden under
RULIPA. Accordingly, plaintiffs seventh objection is overruled.
I. Objection 8
13

Case 5:18-cv-11653-JEL-MKM ECF No. 55, PagelD.803 Filed 07/15/19 Page 14 of 15

Plaintiff s eighth objection is not a proper objection. Plaintiff objects
to the word “if’ in the R&R, where it states, “If the Court adopts the
recommendation to dismiss all of Plaintiffs federal-law claims.” (ECF No.
49, PagelD. 763 (emphasis added).) The objection is not a cognizable
objection under Federal Rule Civil Procedure 72(b)(l)-(3), even when
liberally construed, and it is overruled.
IV.

Conclusion
The Court agrees with the analysis and recommendation set forth

in the R&R. Accordingly:
The Report and Recommendation (ECF No. 43) is ADOPTED;
Defendants’ motion to dismiss (ECF No. 19) is GRANTED; and
Plaintiffs motion for summary judgment (ECF No. 26) is DENIED.
Furthermore, since the R&R is adopted in full, the case is dismissed
in full and plaintiffs and Mr. Bellfy’s remaining unresolved motions on
the docket (ECF Nos. 44, 51, and 54) are DENIED as moot.
IT IS SO ORDERED.
Dated: July 15, 2019
Ann Arbor, Michigan

s/Judith E. Lew
JUDITH E. LEVY
United States District Judge

14

Case 5:18-cv-11653-JEL-MKM ECF No. 55, PagelD.804 Filed 07/15/19 Page 15 of 15

CERTIFICATE OF SERVICE
The undersigned certifies that the foregoing document was served
upon counsel of record and any unrepresented parties via the Court’s
ECF System to their respective email or First Class U.S. mail addresses
disclosed on the Notice of Electronic Filing on July 15, 2019.
s/Shawna Burns
SHAWNA BURNS
Case Manager

15

Case 5:18-cv-11653-JEL-MKM ECF No. 56, PagelD.805 Filed 07/15/19 Page 1 of 1

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION

Dustin Lee MacLeod,
Case No. 18-cv-11653

Plaintiff,

Judith E. Levy
United States District Judge

v.

William Moritz, et al.,
Mag. Judge Mona K. Majzoub
Defendants.

JUDGMENT
For the reasons stated in the opinion and order entered on today’s
date, it is ordered and adjudged that the case is dismissed with prejudice.

DAVID J. WEAVER
CLERK OF THE COURT
By:

APPROVED:
s/Judith E. Lew
JUDITH E. LEVY
UNITED STATES DISTRICT JUDGE

s/Shawna Burns_________
DEPUTY COURT CLERK

Additional material
from this filing is
available in the
Clerk's Office.

A

